                                      SOCIAL SECURITY
MEMORANDUM

Date:      June 26, 2002                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Continuing Disability Reviews for Supplemental Security Income Recipients Approved
           Based on Low Birth Weight (A-01-02-12031)


           Attached is a copy of our final report. Our objective was to determine whether the
           Social Security Administration conducted continuing disability reviews in a timely
           manner for children whose claims for Supplemental Security Income payments were
           approved based on low birth weight.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on our recommendation. If you wish to discuss the draft report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                         James G. Huse, Jr.

           Attachment
          OFFICE OF
   THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


CONTINUING DISABILITY REVIEWS FOR
 SUPPLEMENTAL SECURITY INCOME
      RECIPIENTS APPROVED
   BASED ON LOW BIRTH WEIGHT


     June 2002   A-01-02-12031



   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              Executive Summary
OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA)
conducted continuing disability reviews (CDR) in a timely manner for children whose
claims for Supplemental Security Income (SSI) payments were approved based on low
birth weight.

BACKGROUND

As of August 22, 1996, SSA was required under Public Law (P.L.) 104-193 to perform
CDRs by age one for children whose claims for SSI payments were approved based on
low birth weight. The Balanced Budget Act of 1997 (P.L. 105-33) amended this earlier
provision on August 5, 1997 by permitting SSA to schedule a CDR for a low birth weight
child at a date after the first birthday if SSA determines that the impairment is not
expected to improve by age one.

When an individual’s initial entitlement to SSI benefits is established, SSA sets a
medical review (MR) diary date based on when medical improvement is likely to occur.
However, SSA does not currently select low birth weight cases for CDR development
based on the MR diary. Instead, cases are selected approximately twice each year
using specific selection criteria. A low birth weight case approved at the initial or
reconsideration level is selected during this semi-annual process, provided:

   §   The recipient is currently receiving payments;

   §   SSA decided that the child was eligible to receive SSI payments before
       the child attained age two;

   §   It has been at least 4 months (but less than 42 months) since SSA
       decided that the child was disabled; and

   §   A CDR has not already been initiated or completed.

Six months after a case is selected for a CDR, a follow-up alert is issued if the CDR has
not been completed. Follow-up alerts continue to be generated to the appropriate office
every 3 months until the CDR is either completed or closed.

RESULTS OF REVIEW
SSA did not conduct CDRs in a timely manner for some children whose SSI claims
were approved based on low birth weight in 1998 and 1999. Of the 200 cases in our
sample, SSA did not ensure that CDRs were completed timely in 34 cases (17 percent).
Projecting the results of our sample to the population, we estimate that at least 4,078 of


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)               i
the 31,907 low birth weight cases approved in 1998 through 1999 did not have CDRs
completed timely. Had these CDRs been performed timely, we estimate that SSA
might have avoided paying at least $4 million in SSI funds.

Additionally, SSA did not always ensure CDRs were actually performed once cases
were selected. For example, in one case, follow-up alerts were issued to the FO for
over 2 years, but the CDR was not performed.

CONCLUSIONS AND RECOMMENDATIONS

We believe that SSA should ensure that all low birth weight cases requiring CDRs are
selected 3 months prior to the date that medical improvement is expected, and that the
CDRs are completed in a timely manner. Under this method, low birth weight CDRs
would be completed no later than 9 months after medical improvement is expected.
Also, all cases in which the recipients’ disabilities have improved will be identified and
the recipients will be removed from the rolls in a more timely fashion.

To improve SSA’s low birth weight CDR selection and monitoring processes, we
recommend that SSA:

§   Identify low birth weight cases requiring CDRs each month instead of the current
    semi-annual selection process.

§   Include, in each month’s selection, cases in which the MR diaries mature 3 months
    after the month of CDR selection.

§   Discontinue screening out cases in which the recipients are not currently receiving
    payments when the initial CDR selection is made.

§   Improve the CDR follow-up alert process so that successive alerts are generated to
    higher levels of management at designated times.

AGENCY COMMENTS

In response to our draft report, SSA agreed in principle with our recommendations. The
full text of SSA's comments is included in Appendix B.




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                   ii
                                                                           Table of Contents
                                                                                                                  Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

    Low Birth Weight CDRs Not Completed Timely.................................................5

    Low Birth Weight CDRs Completed Timely .......................................................6

    Low Birth Weight CDRs Not Required ...............................................................6

    Low Birth Weight CDR Selection and Follow-up Process Could Be
       Improved ......................................................................................................7

CONCLUSIONS AND RECOMMENDATIONS .....................................................10

OTHER MATTERS ...............................................................................................11

APPENDICES

APPENDIX A – Sampling Methodology and Results

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)
                                                                     Acronyms
CDR              Continuing Disability Review

CDRCF            Continuing Disability Review Control File

DDS              Disability Determination Services

FO               Field Office

FY               Fiscal Year

MR               Medical Review

NDDSS            National Disability Determination Services System

OIG              Office of the Inspector General

P.L.             Public Law

POMS             Program Operations Manual System

SSA              Social Security Administration

SSI              Supplemental Security Income

SSN              Social Security Number

SSR              Supplemental Security Record




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)
                                                                               Introduction
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA)
conducted continuing disability reviews (CDR) in a timely manner for children whose
claims for Supplemental Security Income (SSI) payments were approved based on low
birth weight.

BACKGROUND

SSI is a nationwide Federal cash assistance program administered by SSA that
guarantees a minimum level of income for certain needy individuals. To be eligible for
SSI payments, an individual must be:

          §    Disabled;
          §    Blind; or
          §    Age 65 or older.

In addition, an individual must:

          §    Be a resident of the United States;
          §    Be a United States citizen or an eligible noncitizen; and
          §    Meet certain income and resource limits.

A child is considered disabled for SSI purposes if he or she has a "…physical or mental
impairment, which results in marked and severe functional limitations, and which can be
expected to result in death or which has lasted or can be expected to last for a
continuous period of not less than 12 months."1 In Fiscal Year (FY) 2000, SSA issued
over $5 billion in SSI payments to blind and disabled children. As of December 2000,
there were approximately 844,000 blind or disabled children receiving Federal SSI
payments.

Children with low birth weight are considered disabled until age one.2 Provided the
other eligibility requirements for SSI are met, low birth weight children are eligible for
monthly SSI payments.

CDRs are performed on SSI disabled child claims to determine whether the recipients
continue to be disabled. SSA reported in its 2001 Annual Performance Plan that

1
    Section 1614 of the Social Security Act, 42 U.S.C. §1382c (a)(1)(B)(3)(C)(i).
2
 A child is considered to have low birth weight if the child: 1) weighs less than 1,200 grams (2 pounds,
10 ounces); or 2) weighs at least 1,200 grams but less than 2,000 grams (4 pounds, 6 ½ ounces) and is
considered small for his or her gestational age (POMS Section DI 25235.005).


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                                 1
“CDRs are one of the most effective mechanisms SSA has for determining
whether…disability beneficiaries have medically improved and no longer meet the
statutory definition of disability, and therefore should be terminated from the rolls.”

SSA has been processing CDRs under a 7-year plan originally issued in
August 1996 (and revised several times subsequently) that expanded the number of
CDRs that would be conducted under the SSI program. SSA’s strategic goal is “To
ensure the integrity of Social Security programs, with zero tolerance for fraud and
abuse.” To accomplish this goal, SSA plans to become current with SSI CDR
                           3
requirements by FY 2002. To fund the cost of CDRs, Congress gave SSA special
funding for FYs 1996 through 2002.4 According to SSA’s annual reports on CDRs for
FYs 1998 through 2000, approximately 4.9 million CDRs were performed during this
3-year period at a cost of $1.6 billion, resulting in an average cost of $328 per CDR.

As of August 22, 1996, SSA was required under section 212 of Public Law (P.L.)
104-193—the Personal Responsibility and Work Opportunity Reconciliation Act—to
perform a CDR not later than 12 months after the birth of a child whose low birth weight
                                                                                      5
was a contributing factor material to the determination that the child was disabled.
Section 5522 of the Balanced Budget Act of 1997 (P.L. 105-33) amended this earlier
provision on August 5, 1997 by permitting SSA to schedule a CDR for a low birth weight
child at a date after the child’s first birthday if SSA determines the impairment is not
expected to improve by age one. SSA must review the disability of individuals whose
conditions are likely to improve at least once every 3 years.6

When an individual’s initial entitlement to SSI benefits is established, SSA sets a
medical review (MR) diary date based on when medical improvement is likely to
occur. Under SSA’s current policy, the diaries for low birth weight children are
set to mature on the child’s first birthday if medical improvement is expected at
that time. However, the diary date may be established for a later date, based on
SSA’s clinical judgment as to when medical improvement is likely to occur.7 SSA
reported in its 7-year plan for CDRs that a full medical review CDR takes
approximately 12 months to complete. If the evidence obtained during the CDR
                                                                         8
indicates that a child’s disability has ceased, then payments will stop.

3
  SSA considers itself “current” when all cases for which a review diary has come due have been released
for processing and Agency resources are available to complete the cases in a timely fashion.
4
    Section 103 of Public Law 104-121, enacted on March 29, 1996, provided special funding for CDRs.
5
 A child’s low birth weight is material to the finding of disability if SSA would not have found the child
disabled had it not considered the child’s low birth weight (POMS Section DI 25235.005).
6
    Section 1614 of the Social Security Act, 42 U.S.C. §1382c (a)(1)(H)(ii)(I).
7
    POMS Section DI 25235.005.
8
  Provided the individual continues to meet the non-disability requirements for SSI, payments continue for
2 months after cessation. The recipient may appeal the decision within 60 days of the date he or she
receives the notice stating that SSA has determined that the individual's disability has ceased.


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                                   2
Historically, low birth weight CDRs have resulted in the highest cessation rate of any
group of SSI disabled child reviews. The following chart illustrates the results of SSI
disabled child reviews performed during FYs 1998 through 2000.9

Figure I: Disabled Child Reviews Performed in FYs 1998 Through 200010

        Low Birth Weight                        Age 18                   All Other Disabled Child
             CDRs                          Redeterminations                      Reviews
         36,581 Reviews                     135,989 Reviews                  402,280 Reviews


53%                                    35%                               19%



                        47%                                    65%                              81%




      Cessations

      Continuances


SCOPE AND METHODOLOGY

To accomplish our objective, we:

§     Reviewed sections of the Social Security Act and SSA’s regulations, rules, policies
      and procedures pertaining to low birth weight CDRs.

§     Obtained from SSA a file of all individuals whose claims for SSI disability payments
      were approved at the initial or reconsideration level in 1998 and 1999. From this file
      we identified 31,907 cases that were approved based on the recipients’ low birth
      weight. We tested this file to ensure that all low birth weight cases were included.
      We selected a random sample of 200 cases from this population and projected our
      sample results to the population. (See Appendix A for details of our sampling
      methodology and results.)



9
 The results reported exclude 990 low birth weight cases; 6,226 age 18 cases; and 12,787 other disabled
child cases for which appeals are pending.
10
     The 2001 SSI Annual Report is the source of the data in Figure 1.


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                            3
§   Determined for each sampled case whether a CDR was required, and if so, whether
    the CDR was completed timely. Specifically, we:

    1. Determined whether the recipient was entitled to a SSI payment after the first
       anniversary of the MR diary date. We reviewed the Supplemental Security
       Record (SSR) for each case to determine which recipients in our sample met this
       requirement.

    2. Researched SSA’s electronic information systems, including the National
       Disability Determination Services System (NDDSS) and the Continuing Disability
       Review Control File (CDRCF), for evidence that a CDR was performed.

    3. Determined whether a CDR was completed no later than 12 months after the
       individual’s MR diary date. In addition, we also determined which cases in our
       sample had CDRs that were completed within 12 months of the date initiated.
       We contacted FO staff for cases where electronic information appeared to
       indicate that CDRs were not completed and more than 12 months had elapsed
       since the MR diary date. If a CDR was required, but not completed timely, we
       calculated the amount of SSI payments due the recipient between the date the
       individual’s MR diary matured and the date the CDR was completed or the date
       we reviewed the case—whichever occurred first.

We performed our audit in Boston, Massachusetts between October 2001 and January
2002. The entity audited was the Office of Disability under the Deputy Commissioner
for Disability and Income Security Programs. We conducted our audit in accordance
with generally accepted government auditing standards.




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)              4
                                                            Results of Review
SSA did not conduct CDRs in a timely manner for 17 percent of our sample of children
whose SSI claims were approved based on low birth weight in 1998 and 1999.
Projecting the results of our sample to the population, we estimate that at least
4,078 out of 31,907 low birth weight cases approved in 1998 and 1999 did not have
CDRs completed timely. Had these CDRs been performed timely, we estimate that
SSA might have avoided paying at least $4 million in SSI funds.11

Figure II: Sample Results
                                                            Our review of 200 cases found:
              Not
            Required
              35%                                           §   CDRs were not completed timely
                                          Com pleted            for 34 cases (17 percent);
                                           Tim ely
                                            48%
                                                            §   CDRs were completed timely for
            Not
          Completed
                                                                96 cases (48 percent); and
           Tim ely
            17%
                                                            §   CDRs were not required for
                                                                70 cases (35 percent).12

LOW BIRTH WEIGHT CDRs NOT COMPLETED TIMELY

We identified 34 of 200 sample cases in which CDRs were not completed within
12 months of the MR diary dates. Had these specific CDRs been completed timely,
SSA would likely have avoided paying at least $51,297 in SSI funds. Specifically, we
found that:

§    For 12 cases, CDRs were completed more than 12 months after the MR diaries
     matured. These CDRs were completed, on average, 14 months after the MR diaries
     matured and 16 months after the CDRs were initiated. Nine of these cases resulted
     in determinations that the individuals’ disabilities had ceased. For six of these
     cessations, the 60-day appeal period had ended as of November 30, 2001 and the
     cessation decisions were final. If these CDRs had been completed timely, SSA




11
  Savings calculations throughout this section of the report include payments made after the first
anniversary of the MR diary. Also, we adjusted our dollar savings to reflect the 53 percent low birth weight
cessation rate (see the Introduction section of this report). For a detailed discussion of our savings
calculations, see Appendix A.
12
  This includes one case where we were unable to locate the individual’s Social Security number (SSN).
Our data extract showed the claim had an internally-assigned number because the child had not yet been
assigned his own SSN.



CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                                 5
     might have saved at least $8,656 in SSI funds.13 For three cases, the CDR
     decisions were cessations, but the recipients remained in their appeal periods as of
     November 30, 2001. If these CDRs had been completed timely, SSA might have
     saved at least $3,243.

§    For 18 cases, CDRs had been initiated but remained pending as of
     November 30, 2001, and more than 12 months had elapsed since the MR diaries
     matured. On average, 21 months had elapsed since the MR diaries matured and
     18 months had elapsed since the CDRs were initiated. If these CDRs had been
     completed timely, SSA might have saved at least $35,287.

§    For two cases, CDRs had not been initiated as of November 30, 2001 and more
     than 12 months had elapsed since the MR diaries matured. On average, 18 months
     had elapsed since the MR diaries matured. If these CDRs had been completed
     timely, SSA might have saved at least $2,814.

§    For two cases, CDRs were initiated but the individuals subsequently became
     ineligible because they no longer met the non-medical requirements for SSI
     eligibility. On average, 16 months elapsed between the dates the MR diaries
     matured and the dates that payments stopped. Had the CDRs been performed
     within 12 months of the MR diaries, SSA might have saved at least $1,297.

LOW BIRTH WEIGHT CDRs COMPLETED TIMELY

SSA processed CDRs timely in 48 percent of our sample cases. For 96 cases, CDRs
were completed no later than 12 months after the MR diary dates. On average, these
CDRs were initiated less than 3 months before the individuals’ MR diaries matured.
The average processing time from initiation to completion was less than 7 months.

LOW BIRTH WEIGHT CDRs NOT REQUIRED

We identified 70 cases in which CDRs were not required for one of the following
reasons:

     §   As of November 30, 2001, 12 months had not elapsed since the MR diary
         matured; or

     §   The individual did not meet the non-medical eligibility requirements for SSI and
         payments were stopped before a CDR was due.




13
   Because SSA has determined that the individual’s disability had ceased, we assumed that SSA would
have made the same determination had the review been completed within 12 months of the date that
medical improvement was expected. Our estimates in Appendix A presume no change in other SSI
eligibility factors during the relevant periods.


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                             6
LOW BIRTH WEIGHT CDR SELECTION AND FOLLOW-UP PROCESS
COULD BE IMPROVED

SSA Does Not Use        Although the MR diary date represents SSA’s determination of
the Medical             when medical improvement is expected to occur, SSA does not
Review Diary Date       currently select low birth weight cases for CDR development
to Select Low           based on the MR diary. Instead, cases are selected
Birth Weight CDRs       approximately twice each year using specific selection criteria.
                        An SSA employee stated that “…the semi-annual selection
                        schedule allows [SSA] to select virtually all prospective
candidates in a timely manner without imposing undo additional demands on [its]
limited resources.”

A low birth weight case approved at the initial or reconsideration level is selected during
this semi-annual process, provided:

     §   The recipient is currently receiving payments;

     §   SSA decided that the child was eligible to receive SSI payments before
         the child attained age two;

     §   It has been at least 4 months (but less than 42 months) since SSA
         decided that the child was eligible to receive SSI payments; and

     §   A CDR has not already been initiated or completed.

Six months after a case is selected for a CDR, a follow-up alert is issued if the CDR has
not been completed. Follow-up alerts continue to be generated to the appropriate office
every 3 months until the CDR is either completed or closed.

SSA considers a CDR to be completed timely if it is completed within 1 year of the date
it was initiated. However, we interpret P.L. 105-33 to require SSA to perform low birth
weight CDRs when medical improvement is expected—be it at age one or later—as
                                     14
appropriate for each individual case. SSA can better meet this requirement if it
considers the date that medical improvement is expected when selecting cases for
       15
CDRs. SSA acknowledged in a prior Office of the Inspector General (OIG) report that

14
  P.L. 105-33, section 5522, states that the requirement that a CDR be performed by age one, as
prescribed by P.L. 104-193, “…shall not apply in the case of an individual…who, at the time of the
individual’s initial disability determination, the Commissioner determines has an impairment that is not
expected to improve within 12 months after the birth of that individual, and who the Commissioner
schedules for a continuing disability review at a date that is after the individual attains 1 year of age.”
15
   Although we believe a CDR is timely if completed no later than 12 months after the MR diary date, we
also analyzed our sample cases to determine whether CDRs were completed within 12 months of the
dates they were initiated. This analysis showed that 36 CDRs were not completed within 1 year of
initiation, 92 were completed within 1 year of initiation, and, for the remaining 72 cases, CDRs were not
required.


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                                    7
the diary date alerts the Agency to the need for a CDR.16 For this reason, and because
SSA estimates that a CDR takes approximately 1 year to complete, we considered a
CDR to have been performed timely if completed no later than 12 months after the MR
diary date.

CDRs Selected            Between October 1998 and November 2001, SSA selected low
Too Late                 birth weight CDRs on seven occasions. The intervals between
                         the selection dates ranged from 2 to 9 months. Because SSI
                         entitlement is calculated based on an individual’s income,
resources, and living arrangements on a month-to-month basis, it is not uncommon for
individuals to frequently fluctuate between SSI eligibility and ineligibility. SSA’s current
selection process only includes cases receiving payments at the time the selection is
made. It is possible that an individual may be ineligible for SSI payments on the date
the selection is made, begin receiving payments again in the following month, and miss
being selected for a CDR when, in fact, a CDR is needed. For example, the MR diary
date matured for one case in our sample on March 1, 2000. However, because the
individual was ineligible for a payment in March 2000, the case was not selected for a
CDR in the March 24, 2000 selection process. The individual again became eligible for
payments beginning with April 2000. It was not until the November 1, 2000 selection
process that the case was selected for a CDR—8 months after medical improvement
was expected to occur.

Out of the 143 cases in our sample for which CDRs were initiated, 49 were initiated
after the date SSA expected medical improvement to occur (34 percent). The latest a
CDR was initiated for a case in our sample was 938 days (or approximately 2.5 years)
after the date SSA initially expected medical improvement to occur.

CDRs Conducted        The current low birth weight CDR selection process does not
Too Early Affect      consider when medical improvement is expected. This results
Administrative        in cases being selected for CDR development before medical
Costs                 improvement is expected to occur. Ten of the 143 cases in
                      which CDRs were initiated (7 percent) were selected for CDRs
                                                                             17
                      more than 12 months before the MR diaries matured. In these
cases, SSA would not be able to gather evidence relevant to the date that it believes
medical improvement will occur and still complete the CDRs within its processing time
goal of 12 months from initiation.

The following are some examples of cases in which the CDRs were initiated too early:

     §   One case was selected for a CDR when the recipient was 5 months old.
         Because the Disability Determination Services (DDS) needs evidence relevant to
16
  “Review of the Effectiveness of SSA’s Low Birth Weight Baby Program” (CIN: A-04-95-06015),
July 1997.
17
  By comparison, SSA allows the FOs to delay development of CDRs on adult disability cases when the
MR diaries have not matured (and will not mature within the next 3 months) and there are no other
reasons to do the CDRs (POMS Section DI 13005.020 E. 2).


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                            8
       the child’s condition at age one, the DDS did not perform a CDR in this case and
       returned it to the FO. The case was originally selected for a CDR on
       October 28, 1998. Since its selection—over 3 years ago—follow-up alerts were
       periodically issued, but the CDR was not performed. The FO confirmed that the
       case was not properly controlled and began developing the CDR upon our
       inquiry. The recipient received $8,960 in SSI payments from the first anniversary
       of the MR diary date through December 1, 2001.

   §   In another case, the individual’s MR diary matured in November 2001. However,
       SSA selected the CDR in June 1999 and completed the review in July 2000.
       Based on the CDR, SSA found that the child was still disabled and payments
       continued. We believe SSA could have saved resources by not performing the
       CDR at that time. The Agency had initially determined that the individual’s
       medical condition would most likely not improve before November 2001 and,
       therefore, had no reason to believe that performing a CDR earlier than
       November 2001 would result in a cessation.

   §   In three additional cases, CDRs were initiated and developed before medical
       improvement was expected. Subsequently, the recipients were removed from
       the SSI rolls because they no longer met the non-medical eligibility requirements,
       and payments were stopped. Had SSA waited to initiate the CDRs until medical
       improvement was expected, the Agency would not have needed to perform the
       CDRs nor incurred the associated administrative costs.

Follow-Up Alerts          Follow-up alerts, issued on cases that were selected for CDRs
Issued to Field           but for which CDRs have not yet been completed, do not
Offices                   appear to be effective. For nine cases in our sample, the FO
                          acknowledged that they did not actually begin developing the
                          CDRs until considerable time had elapsed since the dates the
cases were initially selected for CDRs. Of these nine cases, the earliest the FO actually
began developing the CDR was 8 months after the selection date. The latest was over
30 months after the case was originally selected for a CDR.

For example, one of these nine cases was selected for a CDR on June 7, 1999. Eight
follow-up alerts issued since December 1999 were unsuccessful in prompting the FO to
initiate the CDR. As a result of our inquiry, the FO located the case in its closed files
and initiated the CDR on November 30, 2001—approximately 30 months after it was
originally selected for a CDR.

SSA considers itself "current" with regard to CDRs if all cases for which review diaries
have come due have been released for processing, and Agency resources are
available to process the CDRs in a timely fashion. As stated earlier, SSA considers a
CDR to be timely if performed within 12 months of the date it was selected. Using
these criteria, SSA may consider itself current with respect to these nine cases, even
though no work was actually performed to develop the CDRs for an average period of
20 months after the selection dates.



CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                 9
                                                  Conclusions and
                                                 Recommendations
SSA did not conduct CDRs in a timely manner for some children whose SSI claims
were approved based on low birth weight in 1998 and 1999. We believe that SSA
should ensure that all low birth weight cases requiring CDRs are selected 3 months
prior to the date that medical improvement is expected, and that the CDRs are
completed in a timely manner. Under this method, low birth weight CDRs would be
completed no later than 9 months after medical improvement is expected. Also, all
cases in which the recipients’ disabilities have improved will be identified and the
recipients will be removed from the rolls in a more timely fashion.

To improve SSA’s low birth weight CDR selection and monitoring processes, we
recommend that SSA:

1. Identify low birth weight cases requiring CDRs each month instead of the current
   semi-annual selection process.

2. Include, in each month’s selection, cases in which the MR diary matures 3 months
   after the month of CDR selection.

3. Discontinue screening out cases in which the recipients are not currently receiving
   payments when the initial CDR selection is made.

4. Improve the CDR follow-up alert process so that successive alerts are generated to
   higher levels of management at designated times.

AGENCY COMMENTS

In response to our draft report, SSA agreed in principle with our recommendations.
Specifically, SSA agreed to select low birth weight cases for CDRs on a monthly basis
beginning 3 months prior to the month the MR diary matures. SSA also agreed to
develop a paperless process to follow-up on CDRs not processed timely.

With regard to recommendation 3, SSA asserts that implementing recommendations
1 and 2 will also address our third issue—since cases that were not selected based on
payment ineligibility will be reexamined each month and released for CDR development
if the recipients begin receiving payments again. (See Appendix B for SSA's
comments.)

OIG RESPONSE

We concur with SSA that recommendation 3 will not be needed once the Agency
begins selecting low birth weight cases for CDRs on a monthly basis.


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)               10
                                                                      Other Matters
POTENTIAL SAVINGS TO THE MEDICAID PROGRAM
The Medicaid program provides medical assistance to certain individuals. The costs of
the Medicaid program are shared between the Federal and State governments.
Generally, SSI recipients are eligible for Medicaid. A State may either use SSI eligibility
criteria for determining Medicaid eligibility, or use its own criteria (with certain
restrictions). Thirty-nine States, the District of Columbia, and the Northern Mariana
Islands use SSI criteria as a basis for determining Medicaid eligibility, and 11 States
use their own criteria.

States may enter into agreements for SSA to make Medicaid eligibility determinations
on their behalf as long as the eligibility requirements of the State’s Medicaid plans are
the same as those for the SSI program. Under these agreements, SSA determines
only when an individual is eligible for Medicaid—SSA does not determine Medicaid
ineligibility. SSA has Medicaid determination agreements with 33 States.

There were 31 cases in our sample in which CDRs were not completed timely.18
Twenty-two of these individuals resided in States in which SSA makes Medicaid
eligibility determinations. SSA determined that these 22 individuals were eligible for
Medicaid for an average period of 7 months after the first anniversary of the MR diaries.
Had timely CDRs been completed for these 22 cases, we estimate that 53 percent
would have resulted in cessations. Therefore, SSA would not have determined that
these individuals were eligible for Medicaid for a total of 77 months.19

In its annual report on CDRs, SSA reports the estimated Federal program savings
based on the CDRs performed which result in cessations. Specifically, SSA estimated
that the CDRs performed in FYs 1998 through 2000 that resulted in cessations would
save the Medicaid program $2.2 billion over the next 10 years. Approximately
                                                                       20
$181.1 million of the estimated savings resulted from the 37,571 CDRs performed on
low birth weight cases.21 We believe additional savings to the Medicaid program may
be achieved if low birth weight CDRs are performed in a more timely manner. When



18
  This excludes 3 cases for which CDRs were completed after the first anniversary of the MR diary, but
SSA determined, based on the CDRs, that the individuals continued to be disabled.
19
  Because SSA does not terminate Medicaid eligibility, we could not conclude whether these individuals
would otherwise have been eligible for Medicaid under other State provisions.
20
  This figure includes 990 cases for which the initial CDR decisions were cessations, but currently have
appeals pending.
21
  Our analysis showed that 8.23 percent of the CDRs resulting in initial cessation decisions from 1998 to
2000 were low birth weight cases. Therefore, we estimate that 8.23 percent of the estimated savings to
the Medicaid program ($2.2 billion) resulting from cessations is attributable to low birth weight cases.


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                                 11
CDRs are not performed timely, individuals whose disabilities have improved, and who
reside in a State which uses SSI criteria to determine Medicaid eligibility, may continue
to receive Medicaid benefits for which they would not otherwise be eligible.




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)              12
                                                       Appendices




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)
                                                                                      Appendix A
Sampling Methodology and Results
From the Social Security Administration, we obtained a file of all individuals whose
claims for Supplemental Security Income (SSI) disability payments were approved in
1998 and 1999.1 From this file, we identified 31,907 cases approved based on the
recipients’ low birth weight. We selected a random sample of 200 cases from this
population. We estimate that at least $4.0 million in SSI funds may have been avoided
had continuing disability reviews (CDRs) been performed timely.2

                        Table I: Sample Results and Attribute Projection
    Population size                                                                             31,907
    Sample size                                                                                    200
    Sampled cases where CDRs were required but were not completed                                   34
    within 12 months of the medical review (MR) diary dates
    Projection of cases in the population for which CDRs were not                                5,424
    completed within 12 months of the MR diary dates
           Projection lower limit                                                                4,078
           Projection upper limit                                                                7,009
Note: All projections are at the 90-percent confidence level.

SAVINGS CALCULATIONS

Based on the SSI Annual Report, 53 percent of CDRs performed on low birth weight
cases in Fiscal Years 1998 through 2000—for which final decisions have been made—
resulted in cessations (see Introduction section of this report).3 Therefore, we estimate
that 53 percent of the cases in our sample for which final CDR decisions had not been
made as of November 30, 2001 will result in cessations. For this reason, we
considered only 53 percent of the payments made to these individuals after the first
anniversary of the MR diary dates in our savings calculations. For cases in which final
cessation decisions have been made, we considered 100 percent of the payments
made after the first anniversary of the MR diary dates in our savings calculations (see
table II).




1
 The population consists of low birth weight cases approved at the initial or reconsideration levels from
January 1998 through December 1999. It does not include cases approved at the hearing level or above.
2
 This estimate is the sum of the lower limit projections of SSI savings that would have resulted from
CDRs had they been performed timely for cases in which final decisions were cessations, and for cases in
which final decisions are pending (see table II).
3
    A CDR decision is final if the decision has been made and is no longer subject to appeal.


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                            A-1
    Table II: Projection of SSI Payments Made to Low Birth Weight Cases For Which
                            CDRs Were Not Performed Timely4
              Cases in Which CDR Decisions Are Final (6 Sample Cases)
    SSI payments made to 6 individuals in our sample for which CDRs       $8,656
    were not completed within 12 months of the MR diary dates and the
    CDRs resulted in cessations
    Projection of SSI payments that may have been avoided had CDRs    $1,380,951
    been completed within 12 months of the MR diary dates
           Projection lower limit                                       $182,174
           Projection upper limit                                     $2,579,728
        Cases in Which Final CDR Decisions Are Pending (23 Sample Cases)
    SSI payments made to 23 individuals in our sample for which          $42,641
    CDRs were not completed within 12 months of the MR diary dates
    and final CDR decisions are pending (reduced by 47 percent)5
    Projection of SSI payments that may have been avoided had CDRs    $6,802,777
    been completed within 12 months of the MR diary dates
           Projection lower limit                                     $3,859,588
           Projection upper limit                                     $9,745,966
Note: All projections are at the 90-percent confidence level.




4
 Of the 34 cases in our sample for which CDRs were not performed timely, 5 had no effect on our savings
calculations and are not considered in our projections. Savings calculations include all payments made
after the first anniversary of the MR diary, less 2 months (since these payments would have been made
even if the CDR were processed timely and the decision was a cessation).
5
  The total payments made to these recipients after the MR diary anniversary—before the 47 percent
reduction—were $80,455.


CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                           A-2
                                                                        Appendix B
Agency Comments




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)
                                        SOCIAL SECURITY

MEMORANDUM                                                                   321067-24-819


Date:      June 14, 2002                                                        Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Continuing Disability Reviews for
           Supplemental Security Income Recipients Approved Based on Low Birth Weight” (A-01-02-
           12031)—INFORMATION


           We appreciate the OIG’s efforts in conducting this review. Our comments on the report are
           attached. Staff questions may be referred to Odessa J. Woods at extension 50378.

           Attachment:
           SSA Response




           CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                  B-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "CONTINUNING
DISABILITY REVIEWS FOR SUPPLEMENTAL SECURITY INCOME RECIPIENTS
APPROVED BASED ON LOW BIRTH WEIGHT”
(A-01-02-12031)

Thank you for the opportunity to review the subject draft report. We offer the following
comments.

Recommendation 1

Identify low birth weight (LBW) cases requiring Continuing Disability Reviews (CDR) each
month instead of the current semi-annual selection process.

SSA Comment

We agree. The total number of LBW cases is much smaller than age 18 childhood and adult
CDRs, therefore the monthly selections will be of a low volume. Receiving these cases on a flow
basis will allow for better field office controls and processing.

We will include the LBW CDRs as part of the Automated Direct Release (ADR) CDR System
where cases are selected monthly and are available for selection beginning
3 months prior to the month the medical re-exam diary matures.

Recommendation 2

Include, in each month’s selection, cases in which the medical review diaries mature
3 months after the month of CDR selection.

SSA Comment

See response to Recommendation 1.

Recommendation 3

Discontinue screening out cases in which the recipients are not currently receiving payments
when the initial CDR selection is made.




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                     B-2
SSA Comment

We believe that by agreeing to Recommendation 1 above, continued screening will not be
detrimental to the integrity of the program and will result in administrative savings that can be
better applied elsewhere. We continue to believe it would not be productive to initiate a CDR for
an individual unless he/she is currently receiving disability benefits. Although we agree this may
have been of some concern based on our 6-month release schedule, once we move these LBW
cases to the ADR, they will be reexamined each month, and if in pay status, will be released. Our
CDR selection process requires cases to be screened from initiation unless the beneficiary is in
current pay status. This is done to limit the initiation of non-productive actions. As noted, each
time a selection is made, all potential candidates are rechecked to determine their current status,
and if in pay status, are released for CDR.

Recommendation 4

Improve the CDR follow-up alert process so that successive alerts are generated to higher levels
of management at designated times.

SSA Comment

We agree that the CDR follow-up process should be improved. We are planning to develop a
paperless process that will produce management information data and the systems support that
will allow all operational components to identify CDRs that are not processed timely.




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)                   B-3
                                                                        Appendix C
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Judith Oliveira, Deputy Director, (617) 565-1765

Staff Acknowledgments

In addition to those named above:

   Jeffrey Brown, Auditor

   Kevin Joyce, Auditor

   David Mazzola, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General's Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-02-12031.




CDRs for SSI Recipients Approved Based on Low Birth Weight (A-01-02-12031)
                            DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                              1
Management Analysis and Audit Program Support Staff, OFAM                   10
Inspector General                                                            1
Assistant Inspector General for Investigations                               1
Assistant Inspector General for Executive Operations                         3
Assistant Inspector General for Audit                                        1
Deputy Assistant Inspector General for Audit                                 1
 Director, Data Analysis and Technology Audit Division                       1
 Director, Financial Audit Division                                          1
 Director, Western Audit Division                                            1
 Director, Southern Audit Division                                           1
 Director, Northern Audit Division                                           1
 Director, General Management Audit Division                                 1
Issue Area Team Leaders                                                     25
Income Maintenance Branch, Office of Management and Budget                   1
Chairman, Committee on Ways and Means                                        1
Ranking Minority Member, Committee on Ways and Means                         1
Chief of Staff, Committee on Ways and Means                                  1
Chairman, Subcommittee on Social Security                                    2
Ranking Minority Member, Subcommittee on Social Security                     1
Majority Staff Director, Subcommittee on Social Security                     2
Minority Staff Director, Subcommittee on Social Security                     2
Chairman, Subcommittee on Human Resources                                    1
Ranking Minority Member, Subcommittee on Human Resources                     1
Chairman, Committee on Budget, House of Representatives                      1
Ranking Minority Member, Committee on Budget, House of Representatives       1
Chairman, Committee on Government Reform and Oversight                       1
Ranking Minority Member, Committee on Government Reform and Oversight        1
Chairman, Committee on Governmental Affairs                                  1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                               1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                 Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector
General (OIG) – administrative support, strategic planning, quality assurance, and public affairs.
OEO supports the OIG components by providing information resources management; systems
security; and the coordination of budget, procurement, telecommunications, facilities and
equipment, and human resources. In addition, this Office coordinates and is responsible for the
OIG’s strategic planning function and the development and implementation of performance
measures required by the Government Performance and Results Act. The quality assurance
division performs internal reviews to ensure that OIG offices nationwide hold themselves to the
same rigorous standards that we expect from the Agency. This division also conducts employee
investigations within OIG. The public affairs team communicates OIG’s planned and current
activities and the results to the Commissioner and Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
